                                                    1

Department of Health and Human Services

       OFFICE OF
  INSPECTOR GENERAL




    COST SHARING UNDER

  THE OLDER AMERICANS ACT





              ~~SERWC$$
          &          “/+
        **             ‘?
       #                    JUNE  GIBBS BROWN
       ~                    Inspector  General
       s
       %
        %++ #
                                     MAY 1996
          >
          ‘~daa
                                   OEI-05-954XU70
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amenti     ia to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit SeMces, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                         OFFICE OF AUDIT SERVICES
The OIGS Oflice of Audit SeMces (OAS) provides all auditing seMces for HHS, either by
conducting audits with its own audit &sour&s or by overseeing-audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficienq throughout the Department.

                         OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
cxmtrol units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECHONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluation (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations cmtained in these inspection
reports generate rapi~ accurate, and upto-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This inspection waa cxmducted in Region V, under the guidance of William C. Moran,
Regional bpector Genera~ and Natalie Coen, Deputy Regional Inspector General.
tinducting the inspection were:


Region V                                                                  Headquarters
Jean DuFre.sne                                                            David Wright
                                          d
Department of Health and Human Services

       OFFICE OF
  INSPECTOR GENEML




    COST SHARING UNDER

  THE OLDER AMERICANS ACT





                 JUNE GIBBS BROWN
                  Inspector General

                      MAY 1996
                    OEI-05-95-00170
                 EXECUTIVE                       SUMMARY



To describe States’ current practices and discuss implementation issues concerning cost
sharing for services to older persons under Title 111of the Older Americans Act.

Background

Through the Administration on Aging (AoA), the Older Americans Act (the Act) of
1%5 authorizes financial assistance to States for setices to older persons. Setices
provided under Title III of the Act include, but are not limited to, nutrition,
transportation, and in-home personal and medical services. The AoA’s programs
reach elderly citizens through a wide nework of public and private agencies, including
local area agencies on aging and service providers.

In the past, States, area agencies on aging, and setice providers have been allowed to
ask recipients of Title 111funded services for voluntary contributions, to help cover the
cost of the sexvice. Mandato~ charges for the federally finded portion of these
setices is not allowed, although States can charge for all or part of their portion of
the funded sewice. Known as cost sharing, these charges have helped some States
maintain or expand services to recipients. In the current reauthorization of the Act,
AoA proposed amendments that would allow States, area agencies on aging, and
service providers to charge for some of the Title III funded senrices.

The AoA requested information on current cost sharing activities within the States.
We surveyed 57 States and territories to obtain the information in this report.

FINDINGS AND ISSUES

Alf Statacolld vohuwnycon@uticw      and36State.s makzweofcatshan             pmgranm
-)      *    qxrienawih    thaepnlctices willafectth ?irlwrdkssmti        -
Z’wmcmzsharing

Thirty-six States reported to us that they have some sort of cost sharing program for
setices to elderly people. These programs vary considerably. They may use State
Units on &ixI&other State agencies, area agencies on aging, and local semice
provider$ or a combination of the above, to bill, colle~ and cany out other
responslMlities. SeMces cost shared also vary greatly, but in-home personal semices
and adult day care programs are the most commonly reported cost shared semices.
As with cost sharing States vary greatly in their voluntary collection activities. After
nutrition semices, transportation is the most common service for which voluntary funds
are collected.




                                             i
The extent of area agency on aging involvement, and how fees are determined,
including the use of sliding-scale fee schedules, will be important to effectively
implementing Title III cost sharing. Sliding-scale fee schedules help address the
“fairness” question of cost sharing, since recipients are asked to pay only what they can
afford, based on their income.

State respondents expressd a variety ofopinions regaling the potentialities of cost shaing
lltik III fiuuik Opihions mnged @m great sqyxw fortheidktq      togreat cautioti

One-half of State respondents believe they can expand the provision of some services
to recipients through cost sharing. They also said that successful implementation will
depend in part on how the cost sharing is explained to, and thus accepted by
recipients. However, some respondents expressed great concern that cost sharing
might encourage some service providers to reach out to recipients better prepared to
share costs, thus undermining targeting efforts to low-income elderly.

Cbst stig    with l’lth IIIjhdY miws accoumtzbi@ and ovem&t quedons for Statq
azea agencies on agihg and service proviiem

Nine States with cost sharing programs currently verifj the reported income of
recipients receiving services. Most cost sharing programs use “self-declaration” by
recipients. Some respondents were concerned that asking recipients to reveal their
income might embarrass or anger them to such an extent that they will drop out of
programs. Other respondents questioned the overall cost effectiveness of income
verification versus self-declaration by recipients.

Cost sharing will also require billing and collection activities that might not currently
exist, including policies and procedures on payment default by recipients. States seem
to have few written policies in this area so far. General policies range from strict
service termination to never terminating services regardless of payment default.

IMPLEMENTATION

If Congress enacts legislation to permit cost sharing, the AoA will need to carefully
consider their direction, oversight, and technical assistance to States, area agencies on
aging, and service providers. Special attention will be needed concerning the use of
fee schedules, income declaration and verification, billing and collection activities, and
policies on payment default. Some States will need more help than others.

The AoA provided comments about this report; they can be found in Appendix C.
The AoA states that the information in the report has provided them with the
necessary background information required to assess cost sharing language in
reauthorization bills in both the House and the Senate. The AoA also anticipates that
the survey data will provide baseline information to develop program policy and
technical assistance for State agencies administering programs under the Older
Americans Act.


                                             ii
                        TABLE                     OF CONTENTS

                                                                                                                     PAGE


EXECUTIVE           suMMARY


INTRODUCHON                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1


FKNDINGS AND ISSUES                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4



    �   States’ current practices will impact on future cost sharing                         . . . . . . . . . . . . . . . . 4


    �   State respondents      expressed variety ofopinions                  . . . . . . . . . . . . . . . . . . . . . . . . 8


    �   Cost sharing raises accountability and oversight questions . . . . . . . . . . . . . . . . . 9



IMPLEMENTATION                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...11


APPENDICES           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .


kSumeys          and Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l


B: Examples ofState            Forms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-1


C       Agency Comments          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l

                         INTRODUCTION



To describe States’ current practices, and discuss implementation issues concerning
cost sharing for sewices to older persons under Title III of the Older Americans Act.

Background

OkkTAm&canr      Actandservi6eY   toe&iymc@iews

The Older Americans Act (the Act) of 1%5 (PL89-73) created the Administration on

Aging (AoA) which provides financial assistance to States for social service and

nutrition programs for older persons under Title 111. Grants are allotted to States

based on the size of the 60 plus population. States submit plans which must be

approved by AoA Regional offices before funds are allocated.


The AOAS 10 regional offices assist States in developing responsive community-based

comprehensive and coordinated sewices for elderly recipients throughout the nation.

The AOAS programs reach the elderly through a network of public and private

agencies, including 59 State and Territorial State Units on Aging (SUAS), and their

approximately 675 local area agencies on aging (AAAs), as well as over 100 Native

American tribal organizations, and approximately 27,000 local sewice providers.


Part IIIB of the Act provides funds for a variety of supportive services, including

health, transportation, and legal assistance. The Fiscal Year (FY) 1996 requested

appropriations for Part IIIB are approximately $307 million. Requested

appropriations for Part IIIC, which funds nutrition sexvices, including both congregate

and home-delivered meal programs, are approximately $470 million. Part IIID

provides for non-medical in-home sewices for frail older individuals. Requested

appropriations for Part IUD are approximately $9 million.


Currently, SUAS, AAAs, and service providers are not permitted to charge mandatory

fees to individual users of semices for federally funded Title III semices. The

solicitation and collection of voluntary contributions from recipients for these semices

is permitted.   Nutrition services generate the most money in voluntary contributions;

supportive sewices, especially in-home sewices, generate the least.


The SUAS and depending on State laws, the AAAs and service providers may charge

mandatory fees to recipients for those seMces which are provided through State or

local funds. These seMces may parallel or enhance the federally funded scmices such

as homemaker selvices. For example, one homemaker visit to an older American may

cost a total of $20.00. The AoA grant may fund half of that visit while State or local

funds will pay for the other half. Under current regulation, the SU~ AAA or service

provider may only mandatorily charge for a portion of the State or locally funded



                                             1
$10.00. Only a voluntary contribution can be accepted for the Federal portion of the
service charge.

There are some sendces in the States provided through Federal Medicaid waivers or
Social Security Block Grants, which might include a fee charged to the recipient of the
semice. The SUA may or may not administer the programs funded through these
Federal sources.

Generally referred to as “cost sharing,” charging for some sexvices helps some States
expand semices, or keep services in place as budgets are cut (GAO 1989). Most
recipients of services who are required to cost share are not opposed to paying for
semices as long as the charge is fair (OIG 1990).

Rrposed kgMUive amenbwm          todknvfmc(x-g

In past re-authorizations of Title 111funding, the Administration has requested cost
sharing for certain federally funded semices. The Congress, however, has never
approved the cost sharing provisions. The AoA’s current re-authorization bill once
again requests provisions for cost sharing. As summarized, AoA requests that sections
306 and 307 (State Plan requirements) of the Act be amended to give States the
option to require or permit cost sharing for some semices under State or area plans.
Under the proposed amendmen~ cost sharing could not be required for information
and assistance. Other services funded with Title 111funds will be open to cost sharing;
States will choose which, if any, of these services they may choose to cost share.

The AoA believes that Congress will pass some form of cost sharing amendments in
this year’s re-authorization of Title III funds. The AoA requested this study in order
to obtain information that will help them more effectively implement recipient cost
sharing for some Title III setices.    In particular, the AoA wanted to know what
current State activities regarding cost sharing are, and how cost sharing for Title III
funds might affect their current cost sharing activities.

Mlm-IoDomGY

The information in this report was obtained by surveying 57 States, the District of

Columbia (DC) and territories (all referred to as States) through a mail suwey. Two

sumeys were sent out. The first was a small two-page sumey to obtain initial

information about whether the State, or any MA or service provider within the State,

conducted any cost sharing with State funds for setices provided to elderly recipients.

The second survey was an in-depth suwey with three sections. The first section asked

questions and requested documentation about the State’s current cost-sharing

activities, the second section concerned States/AAAS/service providers’ activities

regarding the collection of voluntary contributions for Title III funds, and the third

Section asked for State respondents’ thoughts on how cost sharing with Title 111funds

might affect their current activities, and if allowed, how best to implement Title III

cost sharing.



                                            2
Fifty-three States returned the initial suxvey. From this survey, 36 States indicated that
their State conducted some sort of cost sharing activity.

A total of 50 States returned the main sumey in time, and correctly, to be included in
our analysis of the data. Within the main survey, 31 States responded to Section I
regarding current cost sharing activities. Forty-nine States responded to Section II,
and forty-nine States responded to Section III. It should also be noted that not all
States responded to all questions within the survey, so individual questions have
different response rates. (See Appendix A for a copy of the main survey with
responses.)




                                             3

FINDINGSAND ISSUES

All States collect voluntary contributions and two-thirds of the States make use of cost
share progamss States’ specific experiences with these practices will affect their
readiness to implement Title III cost sharing.

Sen&t?s cart shad

Thirty-six States reported to us that they have some sort of cost share program for
sexvices to elderly people. These programs vary in terms of services cost shared, and
in SU& ~         and sewice provider responsibilities for billing, collection, and other
procedures.    Table 1 alphabetically lists the States which reported to us that they cost
share, and the semices for which they do this. In-home personal services and adult
day care programs are the most commonly reported cost shared semices.

Sl?rPicesM4dtUohllwuyClwduion       dkctbls

All of the States collect voluntary contributions for some setices. As with cost
sharing, States vary greatly in their voluntary collection activities. Table 2
alphabetically lists the States and the semices for which they collect voluntary
cmtributions.    After nutrition services, transportation is the most common semice for
which voluntary funds are collected.

AM   invdvemenf

In 13 States, all of the AAAs are involved in cost sharing programs and activities. In
seven other States, some of the State’s AAAs are involved in cost sharing programs,
either because AAAs may choose whether to cost share, or because of pilot projects
or other special programs within the State.

In 11 States cost sharing for services occurs without any AAA involvement. In these
cases the State either contracts directly with local providers, or in a few cases, the cost
sharing is canducted through an entirely different State agency. In these cases, the
SUA also has no current experience with cost sharing practices.

In terms of conducting cost sharing with Title 111funds, current AAA involvement with
cost sharing programs will be important because Title III funds are generally funneled
out to the local providers through the AAAs. (An exception to this case will be 5
States where the State agency is also the State’s only M)




                                              4

                           States   that Cost Share, By Type of Service
    Table I
        WfltJregate home del. in-home    in-home    adult day      transpt.    legal   case
           meal     ! meal   I medical   pemonal                                                      other
                                                      care                    I asst. ~ mgt.
   AK !      P           P         P        P         Cs             P           P
   CA        P           P                                                              Cs CS (respite)

                                   P        P         es             P           P       P

   cT I      P         Cs         es       es         es
   DC                                                                P           P      es

             P           P         P                   P
   GA ~                                                             es           P       P   P(heatth promotion+)

             P,        es        es        es
  HI         P
                                                      es            es           P       P

                        P’                 es          P             P
  ID                                                                             P       P   P(escoft)

             P          P                  es          P             P

  IL       es                              Cs         es             P                        P(senior wmpanion)
  IN        P          es        es       es          es            es          P      c:
 KS                                       es
 KY         P          es         P       es             es          P          P       P     CS (respite+)
 IAl        P          es         P       es              P          P          P       P
 MA         P         es         es       es             es         Cs          P             CS (alzheimer)
 MD         P           P        es       es             es         es         Cs      c!
 ME         P           P       es        Cs             es          P          P      es
 MN         P           P       es        es             es         es          P       P
 Mo         P           P       es        es              P          P          P       P
 ND         ?           ?         ?        ?              ?          ?          ?       ??
 NE         ?           ?         7        ?              7          ?          ?       ??
 NH         P         es          P        P             es          P         P        P
 NJ         ?           ?         ?        7              ?          ?         ?        7?
 NM        P           P         P        es            es          P          P       =      c S (respite)
 Nv        P           P                   P            es          P          P        P
 NY        P           P         P       es               P         P          P        Pc     S (respite+)
oH         P          Cs                 es             es         es          P       p
oR         P           P         P       Cs             Cs          P          P       P
PA         P           P        es       es             es         es          P       Pc      S (attendant)
RI         P           P       es         P             es         es          P
Sc         P          Cs                 Cs             Cs          P          P       P
so         P           P       Cs        Cs              P          P          P
VA         P          P        Cs        Cs              P         es          P        p
VI         ?           ?         ?        ?              ?          ?          ?        ??
VT        P           P         P        Cs             es         es          P        PP     (?)   -
WA         ?          ?          ?        ?              ?          ?          ?        ?
WI        ?           ?          ?        ?     I        ?!7                   ?        ??
          P     ~~    p                  es     !       es     ~   p           P       Cs
TOT        1          9         12       24     I       21         11          1        7                6




                                                    5
            Table 2
                                                 Voluntaw          Contributions                    by Service             and               State

           WWregate                home del.       in-home          in-home
                meal                     meal
                                                                                          adult day           transpt.               Iega( ~=                                         other
                                                   medical          personal                care
    AK :         xx                                                                                                             ~ asst.                    mgt.
                                                                  1    x                                          x!               PI
    AL I         x                        x
                               I                                                                                  x
    AR ]         x                        x                                                                                                                               p(health promotion)

                                                                           x
                   x                 x                      x
    Azj          x             !          x                                                                                                                    x          X(home modification+)

    PA           “             1          ..            x                  X1X                                     x                     x                                )qmsmcelnm
                                                                                                                                                                                   A– mool~
                                                                                                                                                                                       – . ...
                                          x                       Ix                                                                                           x
    ::         :               I
                                                        x                                     _x                   x                     x            !        x          Yfm
                                                                                                                                                                         ;.., ,,
                                          Xj)(                             x                     x
  CT           x               ‘X:                      xix                                                        x                     .XIY!
                                                                                                                                           .                   ,,
  DC           x                          x
                                                                                                 x                 x                     x                     x                                       I
                                                       x	                                        x

 DE ~          x                          x
                                                                                                                   x                  x                        x         X(hlth pImmo/retreat.)
                                                       P                   x                    .Y                A
                                                                                                                  v                   “
 FL            x                          x                                                               I       ..       I          A                        P

 GA
                                                       x      I            x         I          A                 x                   x                        x         [x(w)

               X’)(                                    Xj)(                                    .Y         I
                                                                                                          I       v

                                                                                                                  A        II         v
                                                                                                                                      A
                                                                                                                                      -.              I
                                                                                                                                                      I
                                                                                                                                                               w         :=

 HI
 IA           x
               x                          x
                                          x
                                                       Pj
                                                       x
                                                                           x
                                                                           x
                                                                                               x
                                                                                               x
                                                                                                                  x
                                                                                                                  x                  P
                                                                                                                                      x                        x
                                                                                                                                                              P

                                                                                                                                                                         X(esUM/recreation+)

 ID           x                           x
                               x                                      x                  P                        P
 IL           x                           x            x                   x                   x                  x
 IN}          x                                                                                                                      x                        x          X(info. & assist.)
                           lx,                         x~~
 Ks                                                                                            x                  x                  P                        P
              x                           x            x                   x
 KY                                                           I                      lx                           x                  x                        x

              x                          X1X                               x
 M                                                                                             x                  x                  P

              x                          x                                 x                                      x                  P                        P
 MA           x                          x
MD            x                                                                                           I       nY   I             v
                                                                                                                                                  I                      “,-   .. .
                                                                                                                                                                     iwneann promotion)
                                         x                                 x
ME            x                                                                                                   x                  ;            1           P      I                             I

                                         x             P                 P
MI           x
                                                                                             IP                   XIXID1                          1                  I
                                                                                                                                                                                                   I

                                         x             x                x                    x
MN           x                                                                                     I              X1X                                         x

                                         x             P                x                   Y~v’-’
                                                                                             n                                                    1                                                I
Mo                                                                                                 I              A    I             A
             x                           x                              x                    ..                                                                                               ‘1
Ms                                                                                          X1X1X1                                                            x~
             x
MT           x                          x
                                         x
                                                    x
                                                                        x
                                                                                           x
                                                                                            )x                    x                  x                     P

NC ]         x                          x
                                                                        x        I                                x                  x                     x

                                                    x                   x                  )x                     x
ND           x                          x

                                                                                                                                     x                     x

                                                                        x
                                1X1X1
NH           x                          x           x
                                                                                                                                  ..              I                 J!\!sllwllluwuucau

                                                                                                                                                                    ‘Dfinfn-’-’ ‘--””?)
NJ
                                                                        x                  x                   x       1             x            I                 lv/mA..----..,-
                                                                                                                                                                    lq=uvvwGy/muc.+)A..-
             x                          x           x                   x                  x                   X1X
NM           x                          x           P
                                                                                 I                                                             1           x        ,,., ,,
                                                                                                                                                                    IY(%
                                                                        x                  P                   x                  XIP                               IX(nacniia’
NV          x                           x           P                                                                                                               I-.1. --r.. - )
                                                                       x         I         P                   x                  XIP
NY
 OH
            x

            x
                                        x
                                        x
                                                    x                  x
                                                                       x
                                                                                           x                  x                   x                       P

 OK         x                           x
                                                                                           2(                 x                   x                                  P(?)

                                                                       x                                      x                   x

 OR         x                      ,x              P                   x                   X1X1)(I                               .-                       x~

 PA         x              “         )(
 RI         x                        x
                                                   x
                                                   P
                                                                       x

                                                                       P
                                                                                           x                  x                  x                        P          x(?)
                                                                                 1         P)                 P                  P                        P

 Sc         x                        x                                 x                   x                  x                  x                        P

SD          x                        x
TN
                                                   P                   P                   xf         I
                                                                                                              v
                                                                                                                       1
                                                                                                                                 “
                                                                                                                                                          P

            x                        x
                                                                                                       I
                                                                       x                   x                  ;                  ;                        x         I

Tx
\lA
            x
                       ,
                                     x
                                     ..
                                     x
                                                                       x                   x

                                                                                           x                  x                  x                        x
;           ;                        x
                                                   x
                                                   x
                                                                       x
                                                                       x                   x
                                                                                                              x
                                                                                                              x
                                                                                                                                 x
                                                                                                                                 x
                                                                                                                                                          x
                                                                                                                                                          x
                                                                                                                                                                    X(LTC COOfd.)
WA          x                        x                                                                                                                              X(advoc.kounq
                                                                       x                   x                  x                  x                        P
WI          x                        x             x                   Xix
                                   x                  x

            x                        x
                                x                  x                   x                  x                        x

w           x                        x                                 x                  x                   x                  x                        x

         x=vduntafy~~



                                                                                          6

The AA% will potentially become responsible for developing fee schedules, for
accounting for and tracking funds, and for developing default policies. Currently,
AM staff may or may not have any experience with these activities.

setting off-

Within their current cost sharing and voluntary contribution activities, States are using

a variety of fee setting practices. After determining the actual value of the semice

provided, a State, ~       or service provider might calculate the recipient’s income, and

use income thresholds and fee schedules when determining how much a recipient must

pay for a service. States with more experience with some or all of these activities

might transition into Title III cost sharing more easily or effectively. In addition, these

practices may affect how much revenue can be generated horn Title III cost sharing.


Most of the States that conduct cost sharing programs consider personal income (29

States), income of a spouse living in the household (27 States), and business profits

and interest (25 States), when determining if and how much a recipient should pay for

a sewice. States also consider income from other household members (14 States),

income from government assistance programs (13 States), and assets (5 States). At

least 17 States will deduct certain expenses when determining a recipient’s income.

The most commonly deducted expenses are medical bills, including prescription costs.

Less often considered are expenses such as housing, utilities, and other extraordinary

costs. (See Appendix B for an example of a form used to determine recipient

income.)


Currentlyf 24 States reported that they use an income threshold below which recipients

do not have to pay for the service they receive. Thresholds vary from amual incomes

determined to be at poverty, going up to 150 percent of poverty, or they might be

determined based on monthly income, such as $800.00 a month for a single household

member, or $1500.00 a month for two household members. In some cases, these

thresholds are determined at the local level, and vary from AAA to ~      or even

from semice provider to service provider within a State.


Some States use sliding-scale fee schedules to help providers determine how much a

recipient must pay for a service. The sliding scales generally address the fairness issue

within cost sharing. The more a recipient earns in income, the more they are

expected to pay for a service. Sliding scales might be a useful tool when marketing a

cost share program - recipients are asked to pay only what they can afford.


Within the cost sharing programs, 28 States reported that sliding-scale fee schedules

are used. These might be developed at the State leve~ or left up to the M       or even

to the local provider to develop. (See Appendix B for an example of the sliding scale

used in a cost sharing program.)


Twenty-~o States also use sliding-scale fee schedules in the collection of volunta~

funds. Although recipients of these sexvices are not required to pay for the service,



                                             7
the fee schedules help providers and recipients determine what a recipient’s fair
voluntary contribution should be. States already using sliding scale fee schedules for
their voluntary contribution semices might be better prepared to utilize them in cost
sharing activities.

State respondents expressed a variety of opinions regarding the potentialities
                                                                            of cost
sharing for Th.le III funck Opinions ranged from great support for the id-  to great
caution.




Although most State respondents thought the cost sharing would not affect the way
they provide semices to elderly recipients, about one-half of respondents thought that
through cost sharing, they could expand the semices provided to recipients. Sewices
that could be expanded include transportation, adult day care, respite care, and other
in-home sewices. Most of the respondents were unsure of how much they could
expand these semices.

Eipkiningcatdldg       tomc@?nB

Some respondents expressed that the successful implementation of Title III cost
sharing will depend on how well cost sharing is explained to recipients. Of great
concern was how the concept of mandatory cost sharing will be accepted by recipients
who are used to receiving a senrice for free. Many State respondents expressed that a
personal explanation from the setice provider to the recipient about the need for cost
sharing and the potential benefits, i.e. expansion of services, would be the best
approach. This approach could be supplemented by the use of letters from officials,
flyers, announcements at senior centers, and the use of the media.

Additional ideas about successful implementation of cost sharing Title III funds in
diverse State environments include allowing flexibility both for and within States,
phasing in slowly a few semices at a time, and using pilot programs in order to test
several approaches.

Tmgeting cfsakzs

A few State respondents expressed their concern that cost sharing of Title III funds
could adversely affect current targeting strategies and availability of sexvices to low-
income elderly. Respondents were concerned that, if allowed to cost share, providers
might reach out more aggressively to recipients with the best potential to pay a greater
share of the setice.  No ideas on how to counteract this potential effect of cost
sharing were offered.




                                            8

Cost sharing with Title III funds raises accountability   and oversight   questions   for
Stat= AAA$ and sentice providers.

Ihcume w@idon

Nine States report that they currently verify the income of recipients in their cost
sharing programs through such methods as reviewing check stubs. Most of the cost
share programs use “self-declaration” by the recipients. Some respondents from States
where these methods are not currently in use expressed concern that both the
declaration and/or provision of proof of income will embarrass or anger recipients to
such an extent that they will drop out of programs or discontinue needed semices.

Furthermore, some State respondents also questioned the cost effectiveness of
verification of income. It is possible that the time and resources spent on determining
how much a recipient actually earns will surpass the amount of cost shared funds that
might be lost if self-declared income is erroneous.

13iUng cdhx~       and targeting issues

Cost sharing with Title III funds will require billing and collection activities on the part

of States, AAAs, and service providers that might not currently exist. Currently, in 26

States, the service provider both bills the recipient and collects the cost shared funds.

In nine States it is the AAA that bills and collects cost shared funds.


In most States, for both cost shared funds and for voluntary contributions, the

collected funds are re-spent on the same service they are collected horn. In most

cases, because the funds are collected by the service provider, funds stay within that

sewice and are thus targeted to recipients with certain needs. This is a fairly simple

way to control the use of cost shared funds. However, in some States, where the AAA

or the State collects funds, the collected funds might be used to offset expenses for

other setices. This allows more options for the use of funds, but more planning and

tracking of the funds might be required as well.


Payment default ksucs

Few States with cost sharing programs seen to have clear or written policies and
procedures   regardingpayment default by recipients. At least eight States leave these

policies up to individual AAAs and semice providers. Other States expressed to us

general polici~ such as sending the client several notices before services are

terminate     or negotiating with clients for deferred or different payments. Some

States lean toward policies which require termination of semice after other collection

methods are exhausted. Other States strongly avoid terminating services, regardless of

a recipient’s lack of payment.





                                              9

Acmunfing &rues

Sixteen State respondents eqwessed that cost sharing will change the way Title III
sewices and finds are accounted for in their State. They could not describe what
these changes will look like without more information on what will be allowed or
required in terms of cost sharing, Seventeen respondents also said that computer
systems, and accounting and tracking systems will have to be changed and updated in
order to successfully implement Title III cost sharing.




                                          10

                              IMPLEMENTATION


States currently operate in widely diverse environments regarding current voluntary
contribution practices and cost shared services and programs. Within States, AAAs
and service providers might vary greatly with their practices.

If the Congress enacts legislation permitting the use of cost sharing for Title III funds,
the AoA will need to consider practical aspects of several issues. These include:

       Direction

       The mandates and/or direction AoA will give to the States concerning kinds of
       semices cost shared; the setting of fees, including the calculation of recipient
       income, income thresholds and sliding-scale fee schedules; and the billing,
       collection, and targeting of cost shared funds.

       oversight

       The development of oversight and accounting activities which will be necessary
       on the part of Ao~ the States, AAAs, and sewice providers in regard to cost
       sharing Title 111funds. This includes policies on income verification, and
       payment default.

       Technical Assistance

       The training and technical assistance which will be available to States, AAAs,
       and service providers in regard to implementing Title III cost sharing. Some
       States will need more help than others.

AaAk CI)nunerm

The AoA provided comments about this report; they can be found in Appendix C.
The AoA states that the information in the report has provided them with the
necessary background information required to assess cost sharing language in
reauthorization bills proposed by the majority in both the House and the Senate. The
AoA also anticipates that the survey data will provide baseline information to develop
program policy and technical assistance for State agencies administering programs
under the Older Americans Act.




                                            11

APPENDIX                 A




 Surveys and Responses




         A-1
  STATE 53 Returned



 PLACE AN “X”NEXT TO OPTIONS THAT DESCRIBE YOUR STATE.


 1. Is there any cost sharing for any seMcea provided to elderly recipients in your State?

 YES 36 ANSWER QUESTIONS 2,3, and 4 ONLY.


 NO 17         ANSWER QUESTION 5 ONLY.


2.    Please check the option that applies in your State:

           All AAAsin*      Sti&mmt-t*13                .

          Some AAAs must cast share ~.        PLEASE SEND A LIST OF WHICH
AMs MUST COST SHARE.

          *q-to           costshareornfJt
                                       ~. IF KNOWN, PLEASE SEND A
          LIST OF WHICH AAAs CHOOSE TO COST SHARE.

3.	       Does   the State conduct any cost sharing separate horn AAAs?

          NO

          YES 22      (PLEAsE  EXPLAIN BELOW. USE SEPARATE PAGE IF
                           NKESSARY.)

          cost share through Medicaid waiver, social Security Block Grants.

          Sbte is single PSA

          state has cat sharing both separate from and through AAAs.





                                               A-2

4.	      Listed below are actions State Units on Aging might take when allowing or requiring
         AAAs or heal providers to cost share. Please indicate whether your State Unit on
         -g     h= taken any of the following actions:

Action                                                                       NO YEs

~ Provide guidance to AA4s/LPs to help them develop fee schedules and I        I 14
  procedures.

  Review AAAsJLPs’ proposed fee schedules and procedures.                        12
  Approve AAAs/LPs’ proposed fee sehedulea and procedures.                       7
  Develop fee schedules and procedures to be implemented     by AAA/LP.          18
  Develop fee schedules and prowdures    used by State.                          16
  Other (PLEASE SPECIFY)




5.	      Does your State have any plans to require or allow cost sharing for seMees provided to
         elderly people through the State, AAAs or other local providers?


NO


YES5         DESCRIBE BELOW CURRENT PLANS FOR COST SHARING IN
               YOUR STATE. USE A SEPARATE PAGE IF NECESSARY.




                                             A-3

         MAKN SURVEY SECI’ION I - CURRENT COST SHARING PRACI’ICES

1. Listed below are various seMces that might be offered to elderly people through SUAS, A&k,
and LPs. Please consider the types of seMces listed below. If the seMce is not provided in your State
at U cheek N/A column. If the seMce is provided in your State, but there is no east sharing for that
seMce, check the NO column. If the seMce is povided in your State, and there is -t bring for
the seMce, check the YES column. Please check only one option in the first three columns.

If the answer is “YES,” go to the next three columns and write in the SPENT column how much
money (excluding Title III funds) in FY 1994 was spent on the seMce. In the COLLCITl column
write how much money was collected for that seMce from cost sharing in FY 1994. If you only have
money amounts for another year, please write those, but indicate to the right of the table what year
the amounts are for. If you don’t know how much money was spent or collected in any year, check
the DK column. If you only have total amounts for all setiees, please write those at the bottom of
the table.

                                                                     $$$      S$$
TYPE OF SERVICE                            NIA      NO      YES     SPENT          COLLCTD        DK
                                                                                                  —

 Congregate Meal                             1      28      1                  I           11
 Homedelivered     Meal                      2      19      9                                8
 In-home SeMces (Medial - skilled            8      10      12                               9
 nursing, physical therapy, etc.)
 In-home Setiees    (Penonal   -housewdq    o       5       24                               14
 errands, etc.)
 Adult Day Care                              1      8       21                 I           ] 14
 Transportation                              1      18      11
 Legal A&stance                              2      26      1
 Case Management                             1      19      7
 Othec (PLEASE SPECIIW)                      1      5       5                                1



 To@:



SEND ANY COST REPORTS OR OTHER DOCUMENTATION SENT TO YOU BY W/’Lps
WHICH EXPLAXN THE ABOVE LISTED SS& AND ANY OTHER COST REPORTS
FORMULATED BY THE STATE FOR ACCOUNTING FOR AND TIUCKING THE COST
SHARED FUNDS DESCRIBED ABOVE




                                             A-4

     2. The table below describes different ways cost shared fees might be determined in your State, either
     by the State, AAA or LP. Indicate YES or NO if the option applies in your State. We are aware
     that all options might apply in your State, due to vaxying AAA/LP practi~.   If unknon, check the
     DK dllmrl.

     OPTION
                                                                                       No   YES    DK
     Everyone pays the same set fee based on seMce provided, regardl-        of
     different incoma.  *MD, RI, VT                                                    26   3*    1
     some people pay the same set fee bti on seMw pro~d~, after         ~ruing
     an income threshold. �
                          KS, MO, NY, RI, VT, WY                             22 6* 1
     People pay different fees for different sefi~,   b&   on in~me,   wing
                                                                          a
     “sliding-scale” fee sch~ule.*MA     **CA ~                              1* 28 2**
     Othec (PLEAsE SPECIFY)
     �DC - Based on setice cost, people pay different fees for the setice.             3    1*    1
 A

                                                                                   I
 IF AV-LE,            PROVIDE FEE SCHEDUL=,            AND SLIDING SCALE TABLEs.



 3. Considering most seMces which are cost shared in your State, does the State, any AAAs or LPs
 use an income ceiling above which people are not eligible for some semices?

DK ~

NO       18


~    10 IF YES, EXPLAIN BELOW FOR WHICH SERVICES AND/OR WHICH ~/Lps
USE AN INCOME CEILING. IF AVAILABLE, PROVIDE DOCUMENTA~ON OF
CEILING AMOUNTS.

EXPM:

DC, GA MA MO, m             PA U SD, VT, WA

*me S~* ~ monw ~cmnes which range from $7SO.OOto $1700 monthly for an individual. One
State uses 3W percent of poverty, another uses 300 percent of SS1.




                                               A-5

4, Listed below are various sources of income. For moat serv-kxs that are cost shared, indicate by
checking YES Or NO whether the State, 4          or LP considers each source of income when
determining a client’s cost shared fee. If the answer is YES, check the “VER” column, if this income
is documented and verified by such methods as reviewing pay stubs, etc.

SOURCES OF INCOME                                                          NO    YES    VER       DK
 Personal (wages, salaries, retirement/pensions, Social Security, income    1     29    9*    1
 from insurance, etc.) *CT’, DC, HI, Q ~        OH, PA RI, VT
 Business and investment (profits, interest dividends, rent, etc.)         13    125   \7*    3
 Income of spouse living in household. “~,    DC, HI, II+ ME, OH,           2     27    9*    1
 PA RI, VT
 Income of household members other than spouse.”~         ME, PA RI,        14    14    5*    3
 VT
 Income from government assistance programs (Food Stamps, AFDC,             15    13    3*    1
 etc.)* DC, CT, OH
 Assets (home, vehicles, etc.)*CX, MD, MN, NM, SD          �*CI’            23    5*    1**   1
 Othe~     (PLEASE SPECIIW)                                                 o     0     0


IF AVAILAB~       PROVIDE      COPIES OF FORMS USED ‘K) DJHHUINE                 INCOME



5. Considering most cost shared seMces in your State, does the State or any AAA/LP use an income
threshold below which people do not have to pay for any serviee?

DK 2         CA MN

NO     4      DC, KS, QNH

YES 24        IF YES, EXPLAIN BELOW FOR WHICH SERVICES AND/OR WHICH
               A%4#LPs HAVE AN INCOME THRESHOLD. IF AVAILABLE INCLUDE
               DOCUMHWATION OF THRESHOLD AMOUNTS.

EXPLAIIL

Poverty or below - CI’, II+ OI& PA SC, SD,

12S% of Poverty or below -GA

150% of Poverty or below - NY

Approx. $8000.00 or less annual income for one person - KY, VA

Approx. S800.(K)or less monthly income for one person - MO, WA

Those with Medicaid eligibility or incomes less than - MA

Determined at local level - MD, VT





                                              A-6

6. Does the State, or any AAAs or LPs deduct any client expenses (e.g. housing, medical, loans) from
clients’ income when determining fee levels for services?


DK    4     CA CT, NM, NV

NO    10     DC, GA IL KS, L% N@ MD, NH, WA

YEs  17   IF YES, EXPLAIN BELOW WHAT EXPENSES ARE DEDUCTED WHEN

DETERMINING FEE LEVELS. IF AVAILABLE PROVIDE FORMS OR OTHER

DOCUMENTATION TO ILLUSTRATE.


EXPLAIN:

MEDICAL - HI, ID, IN, KY, MO, OH, OR, PA SC, VA VT, WY

HOUSING - NY, VT, w

ENERGY - SC

NON-EMPLOYMENT        INCOME (such as IRS deductions)- ID

DEPENDENT CARE - VT

OTHER - (extraordinary situations that affect income, situations that are determined on case by case

basis) - KY, ~ SC, VT

UNKNOWN - RI, SD



7. Below are various actions SUAS might take when collecting cost shared fbnds or aIlowing A&% or
LPs to collect cmt shared funds. Indicate by checking YES or NO if your State has taken any of the
following actions. (CHECK ALL THAT APPLY.)

 ACI’ION                                                                     NO        YES    DK
 State bills client and collects mat shared funds. *SD, RI      +~                27    2*    1+
 AAA bills client and State collects cost shared funds. +CT                    12810         11+
 AAA bills client and collects cost shared funds.*G~   IN, KY, N@ NY, OH,         20    9*    1+
 OR. PA VA       +CI’
 LP bills client and State collects cost shared funds. *SD +~                     27    1*    1+
 LP bills client and CQllects cost shared fimds.*SD, OH      +C/& VA              2*    26    2+
 Othec (PLEASE SPE~)             � DC -client pays contractor
                                                                                        4*
 PA -clientsends receipts to AAA and is reimbursed
 MO - state deducts co-pay for providers reimbursement
 HI- client pays contractor and is reimbursed by LP

IF AVAILAB~  PROVIDE EXAMPLES OF FORMS USED TO BILL CLIENTS, AND OTHER
BILLING PROCEDURES OR POLICIES.




                                             A-7

 8. Below are listed various seMces which might be cost shared. The columns to the right give
different times when payments on cost shared funds might be collected. The times are ONCE A
MONTH (MON); md AT THE T’fMEOF THE SERVICE (SER). We are aware that these times
might vary by individual AAA/LP practice. Check the VARI= (VAR) column if this is the case. If
there is some other time when payments are collected in your State, check the OTHER (OTH)
column and indicate to the right of the table what that time is. If unknow, check the DK column. If
the senice is not cost shared or is not provided in your State, check the N/A column.


TYPE OF SERVICE
                                                           MON      SER             VAR         OTH      DK        N/
                                                                                                                        A

 congregate   Meal
                                                               1        2       1         ()         1       ~J

 Assist with bathing/

 dressing in the home                                          10       1       9         (-j        1       7


 Respite Care
                                                            6       3       7             1       1          lo
 Home-health seMces (skilled nursing, physical
                                                            6       1       6          0         2        ~~
 therapy, etc.)
 Emergency reqmnse/aleti
                                                            1       1       5          0         3        18
Friendly dsfiits
                                                            1       0       1         ()         2       23
Light housework
                                                            11      1       10        0          2       4
Errands/shopping
                                                            10      1       6         0          2       9
Handyman/minor home repair
                                                           33               60                   11          J
Transportation
                                                           23               60                   31          3
Legal assistance
                                                           12               2         0          12          ~
Adult Day Care
                                                           10       1       9         ()         3       6
&    management
                                                           3        0       4         0          11       (J
counseling
                                                           2        0       1         (,)        2       22
Other (PLEAsE SPE~*MA-bW              for entire program   3
MO-RN visitand ~           personal, KS-senior care act                     2+
+NY-respite and ancillary, PA-partial hospitalization




                                         A-8

9.	   Please explain general policies and procedures used by the State, and if known, by most AWWILPS
in the State when ciients default on cost sharing bills. A’TTACH ANY AVAXLABLE
DOCUMENTATION EXPLAINING POLICIES AND PROCEDURES.

Policy developed by AAA/LP - G4 HI, KY, NM, OR, PA VA VT

Give client several noticedchances to pay before sernce termination-ID, IL OH, PA SC, W

Will try to work out with clients on case by case basis -HI, ME, OR, PA SC

Generally will not terminate seMces -NH, NV, OR, SC, VT, WY

Generally will terminate seMces after other collection methods are exhausted -ID, IL, IN, KS, ~

ME, NY, OH, PA SD, VA

Other - DC (seMce is provided only on receipt of payment for a voucher.)

Unknown - Al& CA MD, MN, MO





10. Listed below are some options regarding how cost shared funds might be spent after they are
collected. Indicate by checking NO or YES if this option applies in your State. We are aware that
more than one option might apply in your State due to varying AAA/LP practice. Check all options
that apply.

OPTIONS                                                                       NO     YES     DK

 Collected funds are spent only on the same type of service.*KY, NY             2*     ~     3

 Collected funds are used to of&et administrative rests at State/local          18     7*    4
 level.”~ @ ~        NV, ~ VA VT
 CQlkted     funds are used to oftket expenses for other seMces.*MO, ~          16     7*    6
 NY, 0~      PA ~ VA
 COllected fimds are used to offset expe~      m other State/local              20     5*    4
 programt*MO, NY, ON RI, VA
 Other (PLEASE SPECIFY) �KY -unknowm VA -unexpended balances                           2*
 must be spent on critical care needs.




                                              A-9

11. Does your State keep track of, or have any records or reports indicating the administrative costs
incurred horn cost sharing practices?

DK     3

NO     26

YES2         (PLEASE EXPLAIN, AND ATTACH ANY PERTINENT
                 DOCUMENTATION)

KS - difficult to calculate, but administrative casts to not exceed collected amounts.
VA - each AAA reports cost of administering fee for seMce program.




                                               A-10

             SECTION II - CURRENT        VOLUNTARY        CONTRIBUTION        PRACI’X~



12. Below is a table that lists various seMcea that could be provided in whole or in part with Title III
funds. As with the first table, check the N/A column if the seMce is not provided in your State at all.
Check the NO column if the seMce is provided but voluntary contributions are not collected at all fol
the service. Check the YES column if the seMce is provided and voluntary contributions are
collected. Check only one option for each seMce.

If the answer is YES, indicate how much of Title III money was spent on that seMce in FY 1994 and
how much was collected in voluntary contributions. If you have figures for another year, use those
figures, but indicate what year to the right of the table. If figures are unknown, check the DK
column. If only total amounts are know write those in the last row.
                                                                          $$$      $$$
TYPE OF SERVICE                            N/A     NO      YES       SPENT        COLLCTD       DK
 Congregate Meal                             o      0      49
 Homedelivered      Meal                     o      0      49
 In-home SeMce (Medical - skilled            16     9      22
 nursing, physical therapy, etc.)
 In-home SeMces (Personal -housework         1      3      43
 errands, etc.)
 Adult Day Care                              5      4      37
 Transportation                              o      1      48
 Legal Assistance                            o      7      41
 Case Management                             6      17     22
 Othec (PLEASE SPECIFW)                      o      2      17



 Totalx



SEND ANY COST REPOR’IS OR OTHER DOCUMENTATION SENT TO YOU BY f%%%~ps
WHICH EXPLAIN THE ABOVE LISTED $$$S, AND ANY OTHER COST REPORTS
FORMULATED BY THE STATE FOR Accounting     FOR AND TRACKING VOLUNTARY
COLLECTED
       FUNDS.




                                             A-n
13. Does the State or any AAAWPS use any fee scheduledincome      requirements to determi
suggested contribution amounts?

DK    4

NO    23

YEs      22   (EXPLAIN BRIEFLY BELOW AND ATTACH FEE SCHEDULES,                      ETC.)

AAAs/LPs required to develop schedules- PA SC, TN, WV

AAAs/LPs allowed but not required to develop fee schedules -CA GA NY

A4A/LP vary in establishing fee schedules- AZ, CA CT, MN, NH, SC, TN, ~        VA

State has recommended fee schedule for A&VLP use -NC

Other - NM (AAAs post cost of meal at mealsite), RI (nutrition project m.msels for meals)
(home health agencies use fee schedules.)

Unknown - DE, ID, MI, SD





14. Listed below are actions SUAS might take when collecting voluntary contributions and/o
or requiring AAAs/LPs to ccdlect voluntary contributions. Please indicate whether your SUA
taken any of the following actions:

Action                                                                      NO       YES


 Provide guidance to AAAs/LPs to help them develop fee schedules and         20*       2g

 procedures.*~m~DC,~G&m                    ID, II+ IN, NL%MD, MN,


 Review AAAa/LPs’ proposed fee schedules and procedures. �& AR, CO,          22*
      24
 ZG~~m,        ~w,     W~~,           ~~,      ~,~,      W, O~SC,

 VT, WI, WY

 Approve AAAs/LPs’ proposed fee schedules and procedures.”~       DC,        35        10*
 DE, MS, NV, NY, OR PA RI, SD

 Develop fee schedules and procedures to be implemented    by AAA/LP.        35        12*
 �CT, GA ID, LA NCj ND, NV, OR, PA RI, SC, SD

 Develop fke schedules and procedures used by State. �CT’,RI, SD, WI         42        4*
 Other (PLEASE SPECIFY)                                                                o




                                           A-12

15.    Below are actions a State, AAA or LP might take when seeking volunta~   contributions from
clients for seMces. Check YES or NO if any of t-he following actions &cur in y&r State. If
unknow$ check the DK column.

ACI’ION                                                                      NO     YES    DK
 Give client written information on suggested contribution amounta.*IN, WI     2*    44    2+
 +% WA
 Give client envelopes to submit contniutions.”~     ID, MS, WY + WA           4*    42    1+
 Set out a locked box in which clients may contribute. *NH +VT, WA             1*    45    2+
 Send client monthly statement with suggested contribution amount.”%           20    23*   4+
 CO, ~, DC, DE, HI, IA ,KS, ~       MI, MN, MO, ND, NH, NV, OR, PA
 SC, SD, ~    VA WV, WY +KY, NJ, VT, WA
 Negotiate amount of contribution with client or family member.”~ AZ,          24    19*   5+
 CO, cr, DC, HI, u    ME, MI, MS, ND, NH, NM, NV, pz% ~, SC, SD,
 TX +MT, OR, VA VT, WA
 Ask for contributions from family members.”- DC, DE % HI, KY, @               19    23*   5+
 MD, MI, MO, MS, MT, ND, NJ, NM, NV, OR, PA RI, SD, ~     VT, WV.
 +AR, h@ NH, v~ WA.
 Othen (PLEASE SPECIIV) *MS -promote contributions using written                     3*
 and verbal methods, SD -use a monthly ticketipunch card system WI -give
 client information on service cost per unit.



PROVIDE EXAMPLES OF FORMS, STATEMENTS, AND/OR ENVELOPES USED TO
COLLECT FUNDS.




                                             A-13

16.  Listed below are some options regarding how voluntarily contributed funds might be spent after
they are collected. Indicate by checking NO or YES if this option applies in your State. We are
aware that more than one option might apply in your State due to va@ng.-  AAA/LP practice. Check
all options that apply.      -

OPTIONS                                                                          NO    YES    DK
 Collected funds are spent only on the seMce they are collected frorn.’~          4*    39    4
 KY, OR, SC
 Collected funds are used to offket administrative costs at State/local level.    35    8*    3
 *GA ~      ME, NV, RI, V& VT, WV
 Collected funds are used to offset expenses for other setices.    �CO, G~        26    15*   5
 ~~=,~ME,~,NH,OR,P~N,SC,V~W
 Collected funds are used to offset expenses in other State/local programs.       39    2*    5
 *KY. LA
 Othec (PLEASE SPECIIW)           *KS -collected funds must be used within              1*
 same title




                                              A-14

17. Below are listed various seMces which might have voluntary contributions. The columns to the
right give different times when voluntarily contributed payments might be collected. The times are
ONCE A MONTH (MON); and AT THE TIME OF THE SERVICE (SER). We are aware that
these times might vary by individual AAA/LP practice. Check the VARIES (VAR) column if this is
the case. If there is some other time when payments are collected in your State, check the OTHER
(OTH) column and indicate to the right of the table what that time is. If unknown, check the DK
column. If the seMce has no voluntary contributions or is not provided in your State, check the N/A
column.

TYPE OF SERVICE                                         MON     SER     VAR        OTH        DK        N/A
 Home Delivered Meal                                       5     7      35     1         1     0

 Congregate Meal                                           1     31     16     0         1     0
 Assist with bathing/                                      6     2      28     1         1     9
 dressing in the home
 Respite Care                                              7     2      26     1         1     10
 Home-health seMces (skilled nursing, physical             2      1     20     1         2     21
 therapy, etc.)
 Emergency responsdalert                                   1      1     14     1         5     24
 Friendly callshisits                                      o      2     17     1         3     21
 Light housework                                           6      4     28     1         1     5
 Errands/shopping                                          4      3     27     1         3     8
 Handyman/minor home repair                                o      5     27     1         1         11
 Transportation                                            1      22    22     1         1     0
 Legal assistance                                          1      8     2s     1         4     7
 Adult Day Care                                            6      3     26     1         1         10
 Case management                                           2      2      17    1         2     22
 Counseling                                                o      1      15    1         3     2s
 Other (PLEASE SPECIFY) �HI - escx.xt, MA-health           o      3*    o      0         0•
 promotio~ VAden@ health promotion, emergency,

 financial consulting, info and referral.





                                            A-15

              SECf’ION III - IMPLEMENTATION            OF TITLE III COST SHARING

18. Listed below are some potential changedeffects that might happen in your State if cost sharing
for certain lltle III funds is implemented. Check the NO column if you believe the change will not
happen in your State. Check the YES column if you think this change might happen in your State
AND EXPLAIN BELOW HOW YOU THINK THAT CHANGE MIGHT OCCUR. Check the DK
column if you do not know if this change will happen in your State.

POTENTIAL     CHANGE                                                            NO    YES    DK

 Cost sharing of Title III funds will change the way setices are provided in     24    14*   11

 the State.* AZ, CO, HI, KY, @ ~          ~    MN, NC, NM, RI, TN, ~      WI

 Cost sharing of TMe XIIfunds will change the way funds are allocated to         27    1*    19

 MAs.”KY

 Cost sharing of Title III funds will change the way funds are allocated to      21    4*    24

 LPs.*HI, KY, NM, RI

 Coat sharing of Title III funds will change the way funds are accounted for     17    16*   16

 by the State/&U4/LP.*AR, ~, GA KS, KY, w             MI, MS, ND, NY, PA

 RI, TN, VT, WI, w

 Other   (PLEASE SPECIFY)                                                        2     1     2





�EXPLAIN YES ANSWERS:

18D ND -t       sharing mandates may decrease the number of higher income people if the fee scale
requires that significant increases be made.

180TH:
AR -client ccmtriiutions are not reported in detail to the state at present. If cost sharing were
implement@ those funds would have to be reported diHerently.
CA-cost sharing clients would create additional administrative costs.
MS-will need new procedures for dealing with large amounts of funds. Will need closer security or
new ways of dealing with funds.
ND-cost sharing could affect the type of person receiving the seMce.




                                             A-16

19. Listed below are various servi=   that might be funded wholly or in part with Title   III   funds.   If
you believe that this seMce can be expanded and provided to more recipients by cost sharing the Title
III funds spent on this setice, check the YES column. Estimate to the right of the YES column a
percentage on how much this seMce might be expanded through coat sharing. If the seMce cannot
be expanded through cost sharing, check the NO column. If you do not know, check the DK column.

TYPE OF SERVICE                                             DK     NO     YES       PERCENT
 Home Delivered Meal                                         16     12      21
 Clmgregate Meal                                             17     17      16
 Assist with bathing/                                        21     6       21
 dressing in the home
 Respite Care                                                23     5       21
 Home-health seMces (skilled nursing, physical               24     7       14
 therapy, etc.)
 Emergency response/alert                                    23     7       12
 Friendly calldvisits                                        22     21      5
 Light housework                                             19     6       24
 Errands/shopping                                            19     9       21
 Handyman/minor home repair                                  22     6       21
 Transportation                                              18     6       26
 Legal assistance                                            23     6       21
 Adult Day Care                                              19     5       24
 Case management                                             23     13      11
 Counseling                                                  22     10      9
 Other (PLEASE SPECIIY)                                                     2




                                             A-17

20.	 What might be some of the reactions of recipients of Title III funded seMces to the
implementation of mandatoV cost sharing for certain setices?

Recipients will drop out of programs: 21 -AZ, CI’, DC, DE, GA GM, HI, IA KY, LA MA MO,
MT, NH, NY, OL OR, SC, SD, VT, WY

Recipients will say they cannot afford seMces: 15 -AZ, CT, DC, IL, KY, MA ND, NH, NY, PA SC,
mvT,wAw
Recipients will feel resentment/embarrassment     about revealing income: 12 -GA H+ MA ME, ND,
NY, OK SC, SD, TX WA WI

Recipients will understand/acxxpt    necessity 12 -~,   DE, GA IA ME, NH, NY, SC, SD, TX VT,




21.	 What are some ways that cost sharing for Title III funds might beat be announced and explained
to recipients?


Public noticedmass media/hearings: 12-Dg GM, HI, KY, L% M           h@ MT, ND, NY, p~ ~


Involve elected officials: 3-&      KY, LA


Have seMce provider inform recipient in person: 12 -AZ, DC, DE, GM, II+ KY, ME, ND, OR, PA

WA WY

Send letters horn AoA and/or State Agencies: 5- GM, IL, KY, ~        WA


Distribute flyerdother information at senior centers: 4 -AZ, HI, I+@ PA


Explain need for cost sharing/how cost sharing will help maintain or expand seMcea: 15 -~,   DC, GA

~~U~O~O~SC,SD,~VT,W~W


Other suggestions


Use pilot programs to phase in cost sharing.

Involve recipients in planninghmplernentation.

Give clients plenty of notice.

Make sure there is policy that no one will be refused seMce for inability to pay.

Do not use mass media.





                                                A-18

22. What resources (e.g. staff, systems, etc.) does your State anticipate it will take to impleme
sharing for Title III funds?

Staff time at State, M     and/or LP level: 12- AZ, ~,      DC, GA HI, KY, ME, NY, OK OR


Update computer/accounting/tracking    systems: 17 -Cf’, DC, GA GM, KY, ~           ME, MA M
ND, NY, w VT, WA WI, WV

Develop new policies and procedures: 6 -HI, KY, ME, MS, NY, VT

Training time: 10 -GA HI, L     KY, MS, NC, NY, OEL VT, WI

Other costs:
Materials
Travel
Printing
Audita




23. Please comment below on any other implications of cost sharing of Title 111funds.


State supports cost sharing 5- DE, GA ME, SC, SD

Coneem that east sharing will aikct targeting and availability of aeMees to low-income elder
7-cr, Dc, &ND, NY, vT, w

 Other comments:

Would like to eust share nutrition semiees.

State already reeeives substantial amounts in voluntary eontnbution - cannot see how cost sh
bring in more.

Cost sharing constitutes a major change in philosophy - should be considered carefully.

Carefully eonskier the cost effeetivenesa of -      sharing especially if recipients must veri@ in




                                                 A-19

                      APPENDIX                   B




Examples of State Forms for Determining Recipient Income and Sliding Fee Seal=




                                       B-1
            SAME                                                                                      DATE
             ADDRESS                                                             WORKER


             1.	      Monthly income (less federal, state, local uxcs includbg FICA)
                      Social Security/RR Reuremem
                      PensiOdAnnuities
                      Net wages
                      Imeres@ividends
                      Workers, Unemploy., and or Disability Compensation
                      Other Income
                                    TOTAL
             u.	      Exclusions
                      A.     Medical exclusions that exceed 7.5?4of income    maybe deducted:
                             1. Acti monrhly inc~me                                x 7.5% =
                             2,	 Monthly medical expenses
                                 Sub&act” 1” fkom “2”

                      B.    Housing excluions that exceed 30%’o
                                                              of income may be deducted:
                            1. Actuid monthly income                        X 30%’O=
                            2.	 .Monrhly housing expenses
                                Subtract” l” from “2”

            Add Medical exchsions andhousing     exclusions
            Subtract exclusions from acrual monthly income to obtaur adjusted income snd detenm.ne bracket for sliding fee
           scale.
                                                       SLIDING FEE SCALE
                                                          Adjusted income
-     -., ..           1 P-ON                              2 PERSONS                                Cost per hour
                        <1000                               <13(3(3                                   no chge
                      1001-1050                            1301-1350                                      1.50
                      1051-1100                            1351-1400                                      2.00

                      1101-1150                            1401-1450                                      ~.jo

                      1151-1200                            1451-1500                                     3.00

                      1201-1250                            1501.1550                                     3.50

                      1251-1300                            1551-1600                                     4.00

                      1301-1350                            1601-1650                                     4.50

                      1351-1400                            1651-1700                                     5,00

           ;’	
                      1401 = 1450                          1701-1750                                     5.50

                      1451-1500                            1751-1800                                     6.00

                      1501-1550                            1801-1850                                     6.50

                      1551-,1600                           1851-1900                                     7.00

                      1601-1650                            1901-1950                                     7,50

    . .               1651.1700                            1951-2000                                     8.00

                      1701-1750                            2001-2050                                     8.50

                                                                                                    .. . 9.00 -              ..-
          ----        1751-,~fOQ -                         2051-3000
            ,; . ..
                      1801- 18S0                           3001-3050                                     9.50

                      18S1 -,1900                          3051-4000                                     10.00
            ,,’,
          Inwme excccd& rhcse levels, a flatrateof $10.50 per hour will be charged.
    ~,,- Foreachadditio&dlegaldependent for Inhxnal Revenue Service purposes, deduct $200 from monthly adjusted
     ,, &me and use 2 person scale to determine appropriate brscket on sliding fee scale.
     .     ly,  Your fee fir   Personal care                 Home Support                Attendant Can
    ,,        . Home Modi&adon                      Opuons II            service has been determined to be
                                                                          ,.
             .s     “        per hour of setvice.
    ;1
         ,,’


                                                                                 Client signature



                                                              B-2

a-q
                                                                                                    for   the         Eiderly          Prcgram
                      Expanded               ln -Home          SerVICes
                                                                                                                                                                           I
                             cLI~T            COST s~ING                            ‘HREsH0LDsl~9:
                                                Effective                       January                   1,                    ‘~
      .——

       A.    Monthly                   Income       Thresholds
                                                   INDIVIDU-                            “ $946 per month
                                                   co~LE...e                            = S1,264  per month


       B.        Housing               Adjus-ent                Thresholds                                 adjustment                  f averago           monthly

             1)        To be eligibzl=                         ‘~;s~                ‘~”;~;g                than   the                following:
                       housing   expenses
                                                    INDIVIDUM     = $378
                                                    CO~LE . . . . = $506
                                                                                                                                       not    be    more            than
                                                   of     the     housing                             adustment             can
                 2)     The           amount
                        the           following           maximum                       amounts:
                                                        INDIVIDUW   = $189                                      per      month
                                                        COUPLE. 000 = $253                                      per      month


            C.        Cost        Share         Rate       Schedule                                                                                                 1
                        T                                                                                                   COUPLE
                                             lNDIVIDUM
                                                                                                                                                   Fe.
                                                                                                                  Adjusted
                                           J@jUSte~                         Fee                                                                    Rate
                                                                                                                   Income
                                                                            Rate
                                            Income
                                                                                                                                                        . Ot
                                                                                            * o%                 $0
                                      $0
                                                                                �
                                                                                                              $1 to                   $44     “ “        ~::
                                                        $33        “                          5%
                                $1 to                                                                        $45 to                   $89
                                                        $66                                  10 %                                                         158
                               $34 to                                                        15 4            $goto                   S133
                                                                                                                                                          2ot
                               $67 to              S1OO                                      20 8           $134to                   $177                .258
                              $101 to              S133
                              $134to               $166                “ “ “; %                             :::::                    :~~      “ “         :::
                              $167t0                $*99                                        3 58        $267 tO                  $311                 408
                              $200to                $232                                        4 O*        $312to                   S355                 45$
                              $233to                S26~                                        4 58           $356to                $399
                              $266t0                  S299                                                      $400 to              S444      “ “ “; ;;
                                                                                                ;;:             s445 tO              s488
                               S300 to                 $332             �           �       �
                                                                                                                                                     6 0%
                               $333 to                 $365                                         608         $489t0                S532                 6 58
                               $366 to                  S3-                                         658         $533 to               S577                 7 Ot
                                  $399        to        S431                                        70%         $578t0                $621          .     .7 5*
                                  $432        to        S46~                                                                                                808
                                  S466-                 $498                �           �       �
                                                                                                    :%          x:=                   ::::     �            85%
                                  $499        to   S531                                          85%             $711 to               S754                 908
                                  S532to           S564                                          908             $755to                S799
                                  $565        to   $597                                          95%                                                          ;::
                                  $598        to   S631                                         100?             zzZ%ans~;~3*                             1
                                  More        than   S631*
                              b
                                  �    Or eligible                for               Medicaid.

             OFA NO.                  282     (revised            12/94)
                                                                                                                B-3
APPENDIX           C




  AoA’s Comments




     c-1
TO.           Inspector OesmraI

FROM.         Assistant Secretary for Aging

SUBJECE01(3 Draft        Report	 “Cost Sharing Under the Older Americans Act”
                                 &l-65 - q~ .&/7d

‘Xlank you fix the opportunityto reviewand wmment on your draft repo~ “Cost Sharing
Undc# the OlderAmericans Act.’ We are pleased with the attention and quick turn around
provided by your Office of Evaluation and Inspections.

As you know, the Older Americans Act (Act) does not permit cost sharing. State agencies
admbktering programs undct the Act have cxprcsscda desire to knplentmt some ~           of
wstsharingin program under the Ad fbr ow 20 years, and manyare involvedin wat
sharing strategicalas permittedunder other federaland stateprogram In recognitionof this,
and to fwWtW enhxwd coordinationof programs under the Act with other human and
social smite program, we are promoting in the current reauthorization proposal the option
for statesto allow cost Waringfix some scnices.

The comprehensive survey developed and administered by Jean DuFresne, and the
coordination provided by David Wright has provided us with the necesary background
inf~tion     _       to assess cost sharing language in rcauthorizatioo bills propoad by the
@Ori~ ixIbQth the ~OIUE and m,            We also anticipate that this survey data W P1’ovidc
Us with bt@ine iIlfOl’msltiOSlto dCvCIOPprogram poticy and techni@ aSSiStilrl& for state
agencies admkdstaing program5 under the Act.
                                   .                                  n~
